January 22, 2004
Report No. 04-004


Observations from FDIC OIG
Material Loss Reviews Conducted
1993 through 2003




             AUDIT REPORT
                                                 Table of Contents



Part I:

            Transmittal Memorandum to Director,
            Division of Supervision and Consumer Protection
            Observations from FDIC OIG Material Loss Reviews Conducted
            1993 through 2003......................................................................................................I-1

            Summary                                                                                                              I-2

            Observations                                                                                                         I-3

            Corporation Comments and OIG Evaluation                                                                              I-3


Part II:

            Slide Presentation of Audit Results...……….……………………………………...II-1


Part III:

            Corporation Comments ............................................................................................ III-1
                     Part I

     Transmittal Memorandum to Director,

Division of Supervision and Consumer Protection

Observations from FDIC OIG Material Loss Reviews

          Conducted 1993 through 2003
SUMMARY

Our material loss reviews disclosed that the major causes of failure were inadequate corporate
governance, poor risk management, and lack of risk diversification. Bank management 2 took
risks that were not mitigated by systems to adequately identify, measure, monitor, and most
importantly, control the risks. As a result, bank management did not adequately fulfill its
responsibility to ensure that the banks operated in a safe and sound manner. Although economic
conditions may have contributed to failure and the resulting material loss, the economy was not
the sole cause of failure. In fact, the financial condition of the majority of the banks became
dependent on the economy as a result of bank management decisions.

The failed banks typically went through four stages:

            1. Strategy – the banks typically underwent a change in philosophy and developed
               aggressive business plans usually in a high- risk lending niche. Characteristics of a
               bank in this stage included emergence of a dominant person, lack of expertise in the
               niche area, and high- risk lending with liberal underwriting and weak internal controls.

            2. Growth – the banks appeared financially strong due to rapid growth in their niche
               area. High levels of fee income were reported, but bank portfolios were not
               sufficiently aged to show losses resulting from poor lending decisions and weak
               credit administration. Violations of laws and regulations and insider abuse occur red,
               and examiners’ concerns were not fully addressed. Poor risk management and
               inadequate diversification were evident.

            3. Deterioration – the banks’ overall financial condition declined. Characteristics of a
               bank in this stage included resistance to supervisory concerns, overvaluation of
               assets, plateau or decline in earnings, inadequate allowance for loan and lease losses
               (ALLL), impaired capital, significant concentrations of credit, and loan problems that
               were exacerbated when the economy declined.

            4. Failing – massive loan losses occur red, ALLL was severely deficient, significant
               capital depletion occurred, enforcement actions were issued by the FDIC, and key
               management officials departed. A massive capital infusion was needed for the bank
               to survive.




2
    Bank management refers to the Board of Directors and executive officers.
                                                                 I-2
OBSERVATIONS

Our analysis led to the following observations that may be of value to Division of Supervision
and Consumer Protection management and staff involved in planning and conducting bank
examinations:

       •   Failed banks often exhibit warning signs when they appear financially strong.
       •   Financial condition is no guarantee of future performance.
       •   Failed banks freque ntly assume more risk than bank management is capable of
           handling.
       •   An inattentive or passive board of directors is a precursor to problems.
       •   Banks may reach a point at which problems become intractable and supervisory
           actions are of limited use.

The observations discussed in this report underscore one of the more difficult challenges facing
bank regulators today - limiting risk assumed by banks when their profits and capital ratios make
them appear financially strong. A critical aspect of limiting risk is early corrective action by bank
regulators in response to bank examinations that identify potential problems and effects on a bank’s
condition. For example, if a bank is experiencing rapid growth, the effects of poor underwriting in
commercial real estate loans may not appear on the bank’s financial statements until several months
or even years after the loans are made. Left uncorrected, poor underwriting could result in the
serious and intractable problems experienced by the banks we reviewed.

The FDIC has taken a number of steps to address these challenges through risk-focused examination
programs and risk-based capital requirements. Nevertheless, we recognize that bank failures may
never be eliminated and, in a free economy, might even be necessary to cull the industry of marginal
performers and excess capacity.


CORPORATION COMMENTS AND OIG EVALUATION

On January 14, 2004, the DSC Director provided a written response to the draft report. Prior to
receiving the response, we made some changes to the report to add perspective based on
conversations we had with DSC officials. The response is presented in Part III of this report. In its
written response, DSC management generally concurred with the report’s observations and
conclusions. Since the report contains no formal recommendations, no further action is necessary
on the part of management.




                                                 I-3
              Part II

Slide Presentation of Audit Results
OBSERVATIONS FROM FDIC OIG MATERIAL
LOSS REVIEWS CONDUCTED 1993-2003




  Office of Inspector General
        Office of Audits
BACKGROUND

n   Material Loss Provisions of Section 38(k) of
    Federal Deposit Insurance Act effective
    July 1, 1993
    n   Review agency’s supervision of institution,
        including Prompt Corrective Action (PCA)
    n   Ascertain why an institution’s problems resulted in
        a material loss to the insurance fund
    n   Make recommendations for preventing future
        losses
BACKGROUND
Failures of FDIC-Supervised Banks
1993 - 2003
                20


                18


                16


                14


                12
NumberofBanks




                10


                8


                6


                4


                2


                0
                     1993   1994   1995   1996   1997     1998      1999      2000    2001   2002   2003
                                                            Year
                                            Number of Failures Per Year
                                            Number That Resulted in a Material Loss
BACKGROUND
OIG Material Loss Reviews
                                Date        Loss        Assets                           Charter
       Financial Institution   Closed     (millions)   (millions)        Location         Year

Bank of San Diego              10/29/93     $39.4       $316.8      San Diego, CA         1978

Bank of Hartford               6/10/94      $31.3       $349.6      Hartford, CT          1919
Bank of San Pedro              7/15/94      $28.8       $123.4      San Pedro, CA         1975

Bank of Newport                8/12/94      $26.6       $174.3      Newport Beach, CA     1972
First Trust Bank               3/3/95       $34.5       $245.6      Ontario, CA           1887
Pacific Heritage Bank          7/28/95      $37.3       $155.6      Torrance, CA          1981
BestBank                       7/23/98     $171.6       $ 314.0     Boulder, CO           1982
Pacific Thrift & Loan Co.      11/19/99     $52.0       $117.6      Woodland Hills, CA    1988
Connecticut Bank of Commerce   6/26/02      $63.0       $379.0      Stamford, CT          1964
Southern Pacific Bank           2/7/03     $100.0      $1,000.0     Torrance, CA          1982
   Totals                                  $584.5      $3,175.9
            RESULTS OF REVIEW
            Four Stages of a Bank Failure
                                  Stage II: Growth              Stage III: Deterioration          Stage IV: Failing
   Stage I: Strategy
                              Corporate Governance             Corporate Governance            Corporate Governance
Corporate Governance
                              n    Some violations of laws          Increased resistance to         Enforcement actions
n    Change in philosophy          and regulations
                                                               n                               n

n    Aggressive business                                            supervisory concerns            issued by regulatory
                              n    Insider abuse
     plan                                                      n    Independent public              agency
                              n    Disregard for
n    Inattentive Board of          examiners’ concerns              accountant problems        n    Departure of key
     Directors
                              Risk Management                       Memorandum of                   officials
n    Emergence of a                                            n

     dominant person          n    Poor risk diversification        Agreement/Board of         Risk Management
n    High-Risk lending        n    Financially strong               Directors Resolutions      n    Severely deficient
                                   image
n    Lack of expertise in                                      Risk Management                      Allowance for Loan
     high-risk( niche)        Lending Concentration
                                                                    Earnings plateau/               and Lease Losses
     lending area             n    Rapid growth in niche       n

                                   (high-risk) area                 decline                    n    Significant depletion
Risk Management
                                   High level of fee                Inadequate Allowance            of capital
n    Lack of strategic plan   n                                n
                                   income, but portfolio            for Loan and Lease              Need for massive
n    Weak risk                     does not show loss
                                                                                               n

     management                                                     Losses                          capital infusion for
                                   rates
Lending Concentration         n    Poor credit                 n    Capital impaired                bank to survive
n    Liberal underwriting          administration               Lending Concentration          Lending Concentration
n    Weak internal controls
                                                               n    Significant loan amounts   n    Massive loan losses
n    Aggressive growth
                                                                    by type
                                                               n    Growth plateaus
                                                               n    Emergence of loan
                                                                    problems worsened by a
                                                                    declining economy
RESULTS OF REVIEW
Major Causes of Failure

n   Inadequate corporate governance
n   Weak risk management
n   Lack of risk diversification - lending
    concentrations
CORPORATE GOVERNANCE


n   Deficiencies by Boards of Directors
    directly led to failures:
    n   Change in philosophy/aggressive business plans
        and rapid growth
    n   Emergence of dominant person
    n   Lack of expertise in niche lending area
    n   Violations of laws and regulations
    n   Disregard for examiner’s concerns
    n   Internal control and audit deficiencies
CORPORATE GOVERNANCE
Example of a Change in Philosophy
                                     Southern Pacific Bank
                                Change in Composition of Loan Portfolio

                               60                          December 31, 1996       December 31, 1995
                                             58

                               50
        Percent of Portfolio




                                                                                    37              46
                               40
                                                                                                             28
                               30


                               20


                                                                     2     3               2
                               10
                                         8             7    9

                               0
                                    Conforming    Commercial    Consumer        Business          Non-
                                    Residential    Mortgage      Loans         Loans and       conforming
                                     Mortgage       Loans                        Leases        Residential
                                      Loans                                                     Mortgage
                                                                                                 Loans
CORPORATE GOVERNANCE
Aggressive Business Plans
n   Pacific Heritage. Increased assets from $200 to $500 million in 4
    years. Pursued high-risk/high-yield lending without following prudent
    underwriting standards.
n   First Trust. Generated income through significant construction and
    development lending. Portfolio grew from $16 million in 1984 to $88
    million in 1990, without proper policies and procedures in place.
n   Pacific Thrift & Loan. Conducted expansionary program of
    securitizing subprime loans without regard to adequate policies,
    programs, and controls.
n   BestBank. Increased credit card portfolio from $42 million to $314
    million in about 2 years with little preplanning activities or analysis of
    the market before investment. Did not adopt or implement appropriate
    policies or procedures prior to funding new business ventures.
n   Southern Pacific. Acquired or created 10 commercial and 1
    consumer lending divisions from 1993 through 1999 with inadequate
    loan review program and inferior underwriting and administration
    practices. Loans were non-traditional, high-yield, high-risk.
CORPORATE GOVERNANCE
Dominant Person
n   Pacific Thrift & Loan - president was extremely
    influential and dominated the lending area.

n   Southern Pacific - chairman of the board also
    served as president and remained a management
    figure throughout bank’s history.

n   Connecticut Bank of Commerce - chairman of the
    board, who was also the majority stockholder,
    dominated bank management.
CORPORATE GOVERNANCE
Lack of Expertise in Niche Lending Area
n   BestBank. Management was unfamiliar with many aspects of
    banking, yet invested heavily in risky type of credit card lending.

n   First Trust. Management ventured into direct real estate investments
    without adequate policies and procedures and without fully
    understanding the consequences of the new initiatives.

n   Bank of Newport. Management positioned the bank to be
    dependent on the commercial real estate market but lacked expertise
    and experience in commercial real estate lending.

n   Bank of San Pedro. Management displayed poor judgment in
    traditional banking activities (funds management and subsidiary
    operations) and lacked expertise to properly monitor the purchase and
    resale of mortgages.
CORPORATE GOVERNANCE
Violating Laws and Regulations

Examiners cited common violations of laws and
regulations:
   n Federal Reserve Board Regulation O, which

     prohibits loans to insiders
   n FDIC Rules and Regulations section 323.4, which

     established appraisal requirements
   n Legal lending limits established by states

   n Federal Reserve Act sections 23A and 23B, which

     prohibit improper transactions between affiliates
CORPORATE GOVERNANCE
Disregard for Examiner’s Concerns

Examiners identified problems and made recommendations that
were not adequately addressed by the bank.

n   Connecticut Bank of Commerce: risk diversification, risk
    management, loan underwriting, and loan administration.

n   Bank of San Diego: bank management, capital adequacy, classified
    asset reduction, credit concentration reductions, loan policy revisions,
    maintenance of sufficient loan loss reserves, and budget and profit plan
    modifications.

n   Bank of San Pedro: poor underwriting standards, subsidiary's real
    estate investment problems, control of overhead and expenses,
    reliance on volatile liabilities, inadequate Allowance for Loan & Lease
    Losses and capital levels, and ineffective funds management policy.
CORPORATE GOVERNANCE
Internal Control and Audit Deficiencies
n   Banks lacked:
    n   adequate interaction between management,
        internal auditors, and external auditors
    n   strong internal audit function

n   Management did not:
    n   follow established policies
    n   implement and maintain a control environment
        that promoted risk management in operations
    n   implement prudent credit and loan administration
        policies and procedures
WEAK RISK MANAGEMENT
Common Deficiencies

n   Cash flow depended primarily on the performance of
    the real estate market (Pacific Heritage Bank)

n   Subprime loans were securitized without regard to
    adequate policies, programs, and controls (Pacific
    Thrift and Loan)

n   Subprime credit card lending increased without
    adequate planning or analysis of the market before
    investing (BestBank)
WEAK RISK MANAGEMENT
Allowance for Loan and Lease Losses

n   Insufficient risk rating systems

n   Poor loan review processes

n   Failure to consider impact on earnings and
    capital for new and riskier activities (subprime
    lending)
           LACK OF RISK DIVERSIFICATION
                                                                                                                 CONCENTRATION AS
     FINANCIAL                                                                         GROWTH PERIOD IN          A PERCENTAGE OF
    INSTITUTION                                CONCENTRATION                               YEARS                      CAPITAL

                          Construction and development real estate/commercial real
Bank of San Diego         estate                                                     1982 to 1991                From 155% to 1,163%

Bank of Hartford          Multi-family/commercial real estate                        1984 to 1991                From 163% to 238%
                          Construction and development real estate/commercial real
Bank of San Pedro         estate                                                     1984 to 1994                From 215% to 808%

                          Construction and development real estate/commercial real
Bank of Newport           estate                                                     1984 to 1993                From 171% to 582%

First Trust Bank          Direct real estate investing                               1985 to 1990                From 38% to 120%

                          Construction and development real estate/commercial real
Pacific Heritage Bank     estate                                                     1985 to 1993                From 192% to 709%

                                                                                                                 Total Assets From
BestBank                  Unsecured subprime loans for credit cards                  1996 to 1998                650% to 1,160%

                                                                                                                 From 69% to 776%
                                                                                                                 (increase due mainly to
Pacific Thrift & Loan .   Interest-only residual receivables                         1997 to 1999                depletion of capital)
Connecticut Bank of
Commerce                  Commercial real estate and out-of-territory lending        1996 to 2002                Over 400%

                                                                                                                 Residential not
                          Subprime residential mortgage loans and commercial and     Residential: 1991 to 1993   available, commercial
Southern Pacific Bank     industrial loans (industry concentrations)                 Commercial: 1994 to 2000    over 223%
INDEPENDENT PUBLIC ACCOUNTANT
CONCERNS
n   Independent Public Accountants (IPA) for Pacific Thrift and
    Loan, Connecticut Bank of Commerce, and Southern Pacific
    Bank did not comply with American Institute of Certified Public
    Accountants Statement on Auditing Standards 58, Reports on
    Audited Financial Statements.
     n Did not fairly, accurately, and promptly identify the actual
        financial condition of bank.
     n Did not provide a written report of internal control
        weaknesses to bank’s audit committee and examiners.
n   IPAs performed both annual financial statement audits and
    internal audits, a practice that is now prohibited for publicly-
    traded companies by the Sarbanes-Oxley Act and U.S. Securities
    and Exchange Commission.
Other Factors in Failures

n   Fraud and insider abuse was apparent in two
    failures
    n   BestBank engaged in high-risk credit card program
        administered by a third-party contractor who
        made delinquent accounts appear current, which
        delayed the recognition of $134 million in losses.
    n   Connecticut Bank of Commerce’s majority
        shareholder orchestrated a $20 million nominee
        loan scheme to obtain funds to purchase another
        bank.
OBSERVATION NO. 1


Banks that fail often
exhibit warning signs
even though they
appear to be
financially strong.
OBSERVATION NO. 2



Financial condition is no
guarantee of future
performance.
OBSERVATION NO. 3



Banks that fail often
assume more risk than
bank management is
capable of handling.
OBSERVATION NO. 4


Inattentive or passive
Board of Directors is a
precursor to most
problems.
OBSERVATION NO. 5


Banks reach a point at
which problems
become serious and
ultimately intractable.
Failure is unavoidable
absent a significant
capital contribution.
Prior OIG Recommendations
The OIG material loss review reports made numerous
recommendations implemented by the FDIC to help
prevent future material losses. The recommendations pertained
to examiner use of enforcement actions and addressed examiner
assessment of:
   n   Corporate governance
   n   Risk management
   n   Risk diversification
   n   Subprime lending
   n   Securitizations
FDIC Initiatives to Improve Bank Safety
and Soundness
FDIC Initiatives
n   Risk-focused examinations
n   Internal guidance issued on:
     n the impact of the Sarbanes-Oxley Act of 2002

     n internal controls and the detection of fraud

     n subprime lending programs

     n real estate lending standards

n   Rule changes for high-risk residual assets
n   Risk-based capital requirements
n   Outreach programs aimed at bank directors and senior banking
    officials
n   Symposium on “Lessons Learned” from bank failures
CONCLUSIONS
n   Bank management ultimately determines how a bank
    will perform

n   Bank failures will likely never go away

n   Observations in this report may help the FDIC limit
    the cost impact of future bank failures on the Bank
    Insurance Fund
      Part III

Corporation Comments
CORPORATION COMMENTS
